Audit of USAID’s Implementation of the Professional
Document System in the Latin America and the
Caribbean Region

Audit Report No. 1-598-03-003-P

May 9, 2003




              San Salvador, El Salvador
May 9, 2003

MEMORANDUM

FOR:          M/OP/OD Director, Tim Beans

FROM:         RIG/San Salvador, Timothy E. Cox

SUBJECT:      Audit of USAID’s Implementation of the Professional Document
              System in the Latin America and the Caribbean Region (Report
              No. 1-598-03-003-P)

This memorandum is our report on the subject audit.

Your comments on the draft report were considered in preparing this report. They
are included for your reference in Appendix II.

The report contains six recommendations for your action. Please advise my office
within 30 days of the actions you have planned or taken to implement the report
recommendations. Once you have a firm plan of action to implement those
recommendations, please provide it to us for our concurrence. The Office of
Management Planning and Innovation will make a determination of final action
after the recommendations have been completely implemented.

Once again, thank you for the cooperation and courtesy extended to my staff during
the audit.




                                                                                1
Table of   Summary of Results                                                      3
Contents
           Background                                                              4

           Audit Objectives                                                        5

           Audit Findings                                                          5

                  What is the ProDoc workflow for major activities?                5

                  What problems have been encountered by ProDoc users in the
                  Latin America and the Caribbean Region?                         11

                            Link Between Procurement Policy and ProDoc
                            Clauses Not Clearly Defined                           12

                            ProDoc Users Need Additional Resources to
                            Supplement Training                                   14

                            Dialog Sessions and On-line Help Need Clarification   15

                            One Mission Using Older Version of ProDoc             15

                            Users Noted Limitations in ProDoc                     16

                  What actions have been taken by Office of
                  Procurement officials to correct these problems?                17

           Management Comments and Our Evaluation                                 20

           Appendix I – Scope and Methodology                                     21

           Appendix II – Management Comments                                      23

           Appendix III – Questionnaire Content                                   25

           Appendix IV – Questionnaire Results                                    27

           Appendix V – Individual Questionnaire Responses                        39

           Appendix VI – Acronyms                                                 65




                                                                                       2
Summary of   The Regional Inspector General/San Salvador conducted an audit to determine how
Results      USAID acquisition professionals use the Professional Document System (ProDoc)
             to create procurement documents, the nature of problems encountered by users in the
             Latin America and Caribbean Region, and how the Bureau for Management, Office
             of Procurement (M/OP) has addressed these problems (page 5).

             ProDoc users create documents by answering questions in ProDoc about the
             solicitations or agreements that they are preparing. Based on the answers users
             provide, ProDoc identifies clauses, forms, or other text segments to include in the
             document. Users then identify additional clauses that should be included or
             excluded based on the specifics of the procurement action and fill in any details
             needed (page 5).

             Some of the problems identified through ProDoc user responses and through
             detailed testing included:

                •   ProDoc users could not tell if policies originating in Contract Information
                    Bulletins or Acquisition and Assistance Policy Directives were
                    incorporated into ProDoc (page 12).

                •   ProDoc users needed additional resources to supplement training
                    (page 14).

                •   Workflow questions and on-line help needed to be clarified (page 15).

                •   One mission was using a version of ProDoc that was over five months out
                    of date (page 15).

                •   Users also voiced concerns that fill-in fields were sometimes too small to
                    hold the required data or the fonts were too small and that significant
                    amounts of editing were required to finalize ProDoc documents (page 16).

             To address these problems, M/OP offers ProDoc training in Washington and is
             developing plans for ProDoc training at mission sites. M/OP also maintains a
             ProDoc support web site and staffs a ProDoc support help desk (page 17).

             To address the issues noted in this report, we are making the six
             recommendations. We recommend that USAID’s Bureau for Management/Office
             of Procurement include missing clauses in ProDoc clause library (page 12),
             implement procedures to ensure that clauses defined in USAID policy are
             included in the ProDoc clause library (page 13), create an index between the
             ProDoc clause library and procurement policy sources (page 14), provide mission
             ProDoc trainers with additional training resources (page 15), clarify dialog
             session questions and describe in on-line help the impact that different answers



                                                                                              3
             have on procurement documents being created (page 15), and ensure that current
             software is installed at USAID missions (page 16).

             M/OP agreed with the recommendations in this report. Management decisions
             will have been made once M/OP has developed and the Office of Inspector
             General has concurred on a firm plan of action to implement the
             recommendations. The Office of Management, Planning, and Innovation will
             determine final action after the recommendations have been implemented
             (page 20).



Background   The Professional Document System (ProDoc), one application in an integrated set of
             software programs called the Automated Acquisition Management System (AAMS),
             is a tool to help federal employees write solicitations, contracts, grant agreements,
             and other procurement documents that conform to federal laws and agency policies.
             Other members of the AAMS software family include ProTrac, a system to establish
             and automate acquisition procedures, and RegSearch, an on-line guide for locating
             acquisition laws and policies. This audit focused only on ProDoc.

             Until 1999, USAID used a document writing program called Document Generation
             System (DGS) written by Procurement Automated Institute, Inc. (PAI). Late in
             1999, PAI informed USAID that support for DGS would be discontinued when its
             support and maintenance contract expired in November 1999. DGS contained other
             limitations, as well. The software was built on old technology, and it was not year
             2000 compliant. Facing an immediate and pressing need, USAID decided to replace
             the system.

             USAID’s Bureau for Management/Office of Procurement (M/OP) initiated the
             replacement process by surveying software products for possible solutions. After
             identifying five vendors with potential solutions, M/OP evaluated the products’
             functionality, life cycle cost, and compatibility with USAID’s installed systems.

             M/OP eliminated four potential software solutions for a variety of reasons. It
             dropped three candidate solutions from consideration because they were
             combinations of accounting and procurement systems. Utilizing only the document
             writing functionality of those integrated systems was not considered practical. To
             do so would have required complex interfaces between the document system and
             USAID’s existing accounting and procurement management systems. One of those
             solutions would have required specialized staff, as well. A fourth potential solution
             was a stand-alone application that could not be interfaced with USAID systems, did
             not generate required federal forms without customization, and was not price
             competitive.

             According to M/OP’s functional analysis, ProDoc met the minimum requirements
             needed by USAID. The core functionality was essentially the same as the DGS


                                                                                                4
                 system, and the interface requirements between USAID’s systems and ProDoc were
                 not prohibitive. Although the missions would have to operate in a stand-alone
                 mode, an interface could be created for use in Washington. ProDoc did not require
                 the incremental purchase of hardware. When M/OP checked references of other
                 ProDoc users it found that ProDoc’s vendor, Distributed Solutions, Inc., offered a
                 good level of support, was responsive to customer needs, and maintained good
                 quality control over the product. Finally, M/OP found that ProDoc was the lowest
                 cost solution.

                 By implementing ProDoc, M/OP expected to improve three activities. First, ProDoc
                 was seen as a tool that would improve the document preparation process by
                 eliminating the need to download documents into a word processor and by
                 validating regulatory clauses. Second, consistency between documents and policy
                 management would be enhanced. Finally, ProDoc would provide a tool to retrieve
                 procurement data.

                 ProDoc was purchased under a General Services Administration contract. Total
                 costs for fiscal year 2002 and 2003 were $396,486 and $490,570, respectively.
                 This included licensing, maintenance, and support.


Audit            The Regional Inspector General/San Salvador included an audit in its fiscal year
Objectives       2003 audit plan to answer the following questions:

                    1. What is the ProDoc workflow for major activities?

                    2. What problems have been encountered by ProDoc users in the Latin
                       America and the Caribbean Region?

                    3. What actions have been taken by Office of Procurement officials to correct
                       these problems?

                 Appendix I describes the audit's scope and methodology.


Audit Findings   What is the ProDoc workflow for major activities?

                 ProDoc works through the following modules to create documents. Activities
                 under the first two modules need to be completed sequentially to build the
                 structure of the document. The other items can be performed in any order or
                 started, exited, and completed later.

                    1. Select document type and class

                    2. Answer dialog session questions



                                                                                                 5
   3. Manage content

   4. Add custom text

   5. Complete fill-ins

   6. Accumulate reporting data

To begin the process, the ProDoc user selects a document type and document
class from a menu. Examples of common document types available at USAID are
solicitations, contracts, and amendments. The document class corresponds to
phases in the procurement process. These phases include planning, funding,
procurement, award, and post award. An example of a document type and
document class combination could be a request for quotation document type
coupled with a procurement document class.

In the next step, the ProDoc users complete a Dialog Session. The Dialog Session
is an interactive interview where the user answers a series of questions. Answers
given to the questions determine which text segments – clauses, section titles, and
standard forms – are to be included in the document created by ProDoc.

There are two types of Dialog Sessions – fixed screen and scrolling screen. As
part of the initial deployment of ProDoc, USAID decided what types of sessions
to use for specified document types. A fixed screen dialog contains a fixed
number of questions and looks like a form. A scrolling screen dialog displays the
current question at the bottom of the window and previous questions in a gray
window above the current question. The session is dynamic because the flow of
questions is determined by the answers given to previous questions in the session.
Figures 1 and 2 (below) are examples of fixed screen and scrolling screen dialogs,
respectively.




                                                                                 6
Figure 1 – Fixed Screen Dialog
 This figure is an image copied from the ProDoc software application. It shows a
form where the ProDoc user inputs information about the procurement action he
or she is setting up. The fields included on the form are 1) modification number,
2) contract number, 3) order number, 4) pre-fill address (yes or no), 5) type of
modification, 6) 8(a) tripartite, 7) termination settlement, 8) attach
pricing/additional text, 9) mod of order, 10) mod form, 11) mod continuation
page, and 12) web posting.




Figure 2 – Scrolling Screen DialogThis figure is an image copied from the ProDoc
software application. It shows several questions related to setting up procurement
documents. The questions ask the user to set up the appropriate assistance type, enter the
estimated value of the assistance document, indicate the type of organization receiving
assistance, and select the payment type




As mentioned, answers from the Dialog Session determine the text segments to be
included in a ProDoc document. This determination is driven by rules written
into the software code.


                                                                                  7
The result of a completed Dialog Session is a document composed of text
segments. Once built, ProDoc users review the text segments that were included
in the document. The Document Content Manager presents a screen that contains
a listing of clauses, forms, or other text segments in the document. Text segments
selected by ProDoc can be suppressed in this module and clauses that were not
included by the ProDoc software can be incorporated, if applicable. Figure 3
shows the Document Content Manager.

Figure 3 – Document Content Manager

This figure is an image copied from the ProDoc software application. It shows a
list of clauses, type of clause (i.e. full text or custom text), status (blank or text
document – missing), and fill-ins (blank or yes).




Most likely, documents that have been created in ProDoc will have some need to
be tailored to the specific requirements of a procurement action. The Custom Text
Manager desktop allows the user to modify the content of a document by adding
clauses or text segments created outside of ProDoc. Custom text segments can be
seen in the Document Content Manager, but the Custom Text Manager shows
only the segments that need to be imported. Figure 4 shows the Custom Text
Manager.




                                                                                         8
Figure 4 – Custom Text Manager

This figure is an image copied from the ProDoc software application. It shows a
list of file names of the custom text being incorporated, the clause names, status
(custom text), date and time added, and file size.




As illustrated in Figure 4 above, text files for items such as budgets and
descriptions that are specific to the document being created can be added through
the Custom Text Manager. Additionally, document sections for other variables
such as the schedule, scope of work, and delivery terms can be managed in this
module.

Different functionality is used to insert custom information into ProDoc text
segments from the clause library. This is necessary since some standard text
segments require information, such as dates or dollar amounts, that is unique to a
given procurement action. This data is incorporated into existing ProDoc text
segments through Fill-in fields within the segments. Users complete Fill-ins by
typing data directly into clauses or forms. Figure 5 shows an example of a form
with Fill-ins.




                                                                                     9
Figure 5 – Fill-ins

This figure is an image copied from the ProDoc software application. It shows
form with sections (like contract number, name and address of contractor, and
date) that need to be filled in by the ProDoc user.




The Document Content Manager, Custom Text Manager, and Fill-ins sections
described above demonstrate how documents are managed in ProDoc.
Additionally, USAID missions use ProDoc to report their procurement activities
to USAID/Washington as required by federal regulations. ProDoc is used to
complete the report and transmit the information electronically to Washington.

The process for accumulating reporting data is called Edit Check. Edit Check is
an interactive dialog, similar to the Dialog Session discussed on page 6. ProDoc
users answer questions, and the software checks the answers for consistency.
Figure 6 shows an example of the Edit Check process screen.




                                                                                10
Figure 6 – Edit Check This figure is an image copied from the ProDoc
software application. It shows several questions related to verifying that
information that has been input into ProDoc is correct. It asks for basic
information about the document such as whether funds are obligated, the
kind of contract action, and the amount of the award. Then it indicates that
the edit procedures is starting.




Now that ProDoc’s basic modules have been introduced, the next section focuses
on issues ProDoc users in the Latin America and Caribbean Region have
encountered using the software.

What problems have been encountered by ProDoc users in the Latin
America and the Caribbean Region?

The Regional Inspector General/San Salvador (RIG/San Salvador) sent a
questionnaire to the contracting officers in the LAC region and asked them and
their staff to provide feedback. A copy of the questionnaire is included in
Appendix III. A summary of the items noted on the questionnaires and Bureau
for Management/Office of Procurement (M/OP) comments on those items are
included in Appendix IV. The answers given by ProDoc users on their
questionnaires are included in Appendix V. Acronyms used by questionnaire
respondents are defined in Appendix VI.

We received 19 responses to our questionnaire from LAC ProDoc users. One
response was a collaborative effort prepared by five users from a single mission.




                                                                               11
Some of the problems identified through ProDoc user responses and through
detailed testing included:

   •   ProDoc users could not tell if policies originating in Contract Information
       Bulletins or Acquisition and Assistance Policy Directives were
       incorporated into ProDoc.

   •   ProDoc users needed better training.

   •   Workflow questions and on-line help needed to be clarified.

   •   One mission was using a version of ProDoc that was over five months out
       of date.

   •   Users also voiced concerns that fill-in fields were sometimes too small to
       hold the required data or the fonts were too small and that significant
       amounts of editing were required to finalize ProDoc documents.

Link Between Procurement Policy
and ProDoc Clauses Not Clearly Defined

It would be difficult to overstate the complexity of the Federal Acquisition
Regulations System. The Federal Acquisition Regulations (FAR) fills more than
2,200 pages of text. This complexity challenges procurement officials. The
Agency for International Development Acquisition Regulations (AIDAR) states
that “deviation from the mandatory requirements of the FAR and AIDAR shall be
kept at a minimum….” The following discussion identifies areas where ProDoc
can be improved as a tool to minimize deviation from USAID policy.

To test the availability of USAID clauses and policies, we attempted to locate all
55 clauses listed in Agency for International Development Acquisition
Regulations (AIDAR) Subsection H – Part 752. Of those, eight clauses (14.5
percent) were missing from the ProDoc clause library. It is likely that the clauses
were not included as a result of inadequate coordination between M/OP’s Support
Division and its Policy Division. Obviously, clauses missing from the clause
library cannot be automatically included in documents by the software when
needed.

       Recommendation No. 1: We recommend that USAID’s
       Bureau for Management/Office of Procurement include the
       missing clauses from the Agency for International
       Development Acquisition Regulations in the ProDoc clause
       library.




                                                                                12
       Recommendation No. 2: We recommend that USAID’s
       Bureau for Management/Office of Procurement implement
       procedures so that clauses defined in USAID policy are
       included in the ProDoc clause library.

To test whether the ProDoc database contained a complete set of Federal
Acquisition Regulations (FAR) and USAID clauses, we took a random sample
that was designed to determine whether the FAR clauses were included in
ProDoc. The test results were more favorable for FAR clauses in that 98 out of
99 selected FAR clauses were included in the ProDoc clause library.

The testing described in the previous paragraphs was possible because complete
listings of the FAR and AIDAR clauses were published, and we were able to trace
clauses from those lists to ProDoc. For FAR clauses, a matrix of up-to-date
clauses that includes conditions for including the clause in a document is
published with the FAR. For AIDAR clauses, we used the table of contents
listing.

In addition to the FAR and the AIDAR clauses, the ProDoc clause library
contains USAID boilerplate text segments. According to M/OP, these segments
represent standard language that may have been taken from USAID procurement
policy publications such as Contract Information Bulletins (CIBs) or Acquisition
& Assistance Policy Directives (AAPDs). The problem was that there was no
index or other method available to show the policy sources or citations of the
USAID boilerplate text segments included in the ProDoc or to show that the
policy requirements originating in CIBs or AAPDs were incorporated into
ProDoc. This has not been done as M/OP has focused on other priorities.
Nevertheless, without a link between policy and the ProDoc clause library,
ProDoc users can not be reasonably sure that all USAID policy requirements have
been included in the boilerplate text segments available in the ProDoc clause
library.

According to M/OP’s system selection memo, purchasing ProDoc would
“standardize the procurement document generated within the system and ensure
the accuracy and interpretation of the regulatory clauses incorporated within the
procurement document.” Users responded to questions about the conditions when
clauses should or should not be included in a document as follows:

 Question                                   Yes       No      Sometimes

 Generally, does ProDoc include clauses     11         3           4
 that are not necessary?
 Generally, does ProDoc include clauses      8         4           7
 and policies that are needed for the
 document?



                                                                              13
The process of creating documents in ProDoc is subject to the interpretation of the
user creating the document. Ultimately, the ProDoc user has the power and the
flexibility to include or exclude any clauses or text desired. The answers above
imply that users were not confident that ProDoc includes or excludes clauses
appropriately. Not having a listing of clauses and citations to policy that defines
clause usage may lead to uncertainty on the part USAID employees who create
procurement documents and inconsistency between documents with similar
purposes.

       Recommendation No. 3: We recommend that USAID’s
       Bureau for Management/Office of Procurement create an
       index between ProDoc clause library text segments and the
       underlying procurement policy sources.

ProDoc Users Need Additional
Resources to Supplement Training

USAID faces challenges in providing effective ProDoc training. With ProDoc
implemented at numerous missions world wide, USAID has to balance costs and
benefits. It would be difficult to send a ProDoc training team to every mission
that uses the software, and it would be prohibitive to bring all ProDoc users from
the missions to a central location for training. Therefore, when ProDoc was
implemented, training was provided to mission users through a “training of
trainers” model. M/OP held training sessions in five regional locations. Missions
were supposed to send a contracting officer, an executive officer, and the mission
systems administrator to the regional training session. After receiving the M/OP
training, the mission representatives, in turn, were supposed to provide training to
their staff. According to M/OP, not all missions sent complete delegations.

Based on the responses we received to the questionnaires, training provided
through the training of trainers model did not prepare mission users to operate
ProDoc. The questionnaire responses suggested that some of the LAC region
ProDoc users received little more than an overview of ProDoc functionality.

Certainly a training of trainers model can be an appropriate and effective
approach for an organization with worldwide sites like USAID. To maximize the
effectiveness of the model, materials should be created to assist the trainers who
have to present courses to their peers. Responses to the questionnaires indicate
that the ProDoc training given at the missions lacked structure. Without lesson
plans, explicitly defined course topics, and student exercises, non-professional
trainers with limited exposure to ProDoc’s functionality can not be expected to
provide effective training. M/OP acknowledged that materials were not
developed for the presenters and that the initial round of training could have been
better. As of the middle of January 2003, when we completed fieldwork, M/OP
was planning an additional round of training using a training of trainers model.



                                                                                 14
       Recommendation No. 4: We recommend that USAID’s
       Bureau for Management/Office of Procurement provide
       mission ProDoc trainers with course objectives, lesson plans,
       course content, and participant exercises.

Dialog Sessions and On-line Help
Need Clarification

In questionnaire responses, 7 of 19 respondents indicated that some questions
asked in ProDoc during the Dialog Session to create documents were confusing.
This difficulty is magnified in the mission setting since many ProDoc users
overseas are not native English speakers. Additionally, 10 of 19 respondents
mentioned that some questions asked in ProDoc during the Dialog Session to
create documents seemed to be irrelevant. Although ProDoc has an on-line help
function to clarify confusing or irrelevant questions, 9 out of 19 respondents
indicated that they did not use it. Two more respondents provided insight into
why on-line help may not be used. They noted that “it does not give much
information, only repeats the question,” and that “most of the time the help
function does not take you anywhere, since no information is given there.”

Difficult Dialog Session questions and unclear on-line help persist in USAID’s
implementation of ProDoc because M/OP has not made their improvement a
priority. As a result, ProDoc users may not consistently interpret and answer
Dialog Session questions. This results in inconsistent procurement documents.

Every federal agency that uses ProDoc has its own clause library, set of business
rules, dialog sessions, and on-line help screens. These are initially defined when
the software is implemented, and they should be updated as policy changes. The
key point is that any of them can be tailored to USAID’s policies and operating
procedures. Unclear questions can be re-written. On-line help can explain the
impact of answering questions in certain ways.

       Recommendation No. 5: We recommend that USAID’s
       Bureau for Management/Office of Procurement clarify dialog
       session questions and describe in on-line help the impact that
       different answers have on procurement documents being
       created.

One Mission Using Older Version
of ProDoc

Federal Acquisition Regulations undergo constant revision and updates are issued
frequently. Procurement specialists and contracting officers need to incorporate
current regulations into the documents that they create.




                                                                               15
One LAC mission was using a prior version of ProDoc that was approximately
five months out of date. In response, an M/OP official noted that M/OP does not
have a way to ensure that missions use the current version of ProDoc because
another division controls the installation of software at the missions. As a result,
current clauses may not be available to ProDoc users.

       Recommendation No. 6: We recommend that USAID’s
       Bureau for Management/Office of Procurement implement
       procedures so that current software is installed at USAID
       missions in a timely manner.

Users Noted Limitations in ProDoc

In addition to the general themes taken from the user questionnaires and noted
above, users also expressed the following concerns and areas for improvement.
Because these issues are not likely to affect whether a document conforms to the
FAR, AIDAR, or other USAID policy, we are not making any recommendations
for them. Nevertheless, they are significant issues since they may divert the focus
of ProDoc users from the content to the appearance of a document.

•   In 14 of 19 questionnaire responses, users noted limitations with the software
    in the functionality of ProDoc fill-ins (forms). Users noted that the forms, at
    times, did not contain enough spaces for data, did not automatically add
    amounts, and used font sizes that were too small. One ProDoc user also noted
    that the forms could not be sent electronically. To overcome these limitations,
    users perform tasks outside of ProDoc.

•   Documents created in ProDoc required significant amounts of editing in a
    word processor before they could be released as a final version. One of the
    reasons cited by M/OP for selecting ProDoc was that it would eliminate the
    need to download documents to a word processor to reformat it into a
    professional document. Based on the responses to our questionnaire, this
    planned benefit has not been realized with ProDoc.

    To supplement the responses in the questionnaire related to editing, we tested
    the accuracy of clauses for punctuation, formatting, or spelling errors by
    creating a document with 107 randomly chosen text segments from ProDoc.
    The results of this testing are included in the following table.

                                          Segments Percentage out of 107
     Type of error                        with error  segment selections
     Segments with punctuation
     errors                                         4               3.7 percent
     Segments with formatting errors               16              15.0 percent
     Segments with spelling errors                  5               4.7 percent



                                                                                  16
                                                  Segments Percentage out of 107
       Type of error                              with error  segment selections
       Total number of segments with
       punctuation, formatting, or
       spelling errors1                                     21               19.6 percent

   To provide context for the error rates noted above, it is important to mention
   that the 107-segement test document was 97 pages long and contained over
   48,000 words. In the segments with errors, there were a total of eight
   misspelled words and 18 punctuation errors. The formatting errors were of
   three types. In four segments from the FAR, the paragraph structure or
   placement of line breaks in the document was not the same as the construction
   in the FAR. Four segments used inconsistent fonts within the text. And, eight
   segments from USAID sources used an outlining/numbering system different
   from the one used in the FAR.

   The outlining/numbering style used in the FAR was considered to be the
   standard. In the non-FAR segments, there were four deviations from that
   standard style. The table below illustrates the outlining/numbering styles
   noted in the 107-segment sample.

       FAR Style         Deviation 1       Deviation 2           Deviation 3     Deviation 4
       (a)               (a)               A.                    a.              1.
        (1)               (1)               (1)                   (1)
          (i)               (i)                                     (a)
            (A)               1.

What actions have been taken by Office of Procurement officials to correct
these problems?

M/OP emphasizes that ProDoc should not be viewed as a tool that is capable in
and of itself of providing quick, easy answers to every procurement document
writing problem. Instead, as with many tools, ProDoc’s effectiveness comes in
part from the skill and knowledge of the person using the tool. To assist in using
this tool, Office of Procurement officials have developed resources to train and
assist users with ProDoc. M/OP offers ProDoc training in Washington and is
developing plans for ProDoc training at mission sites, maintains a ProDoc support
web site, and staffs a ProDoc support help desk.

ProDoc training can be scheduled in Washington on an as needed basis. Courses
can be provided by M/OP support personnel or by professional training
contractors. The content of the courses can be tailored to the group or individuals
requesting the training.


   1
       Total does not sum since some segments had more than one type of error.


                                                                                            17
Providing training to missions is more difficult because of the costs involved in
sending trainers to the mission locations. Nevertheless, M/OP has started
planning a new round of training. Similar to the training provided when ProDoc
was first installed, M/OP is preparing a “training of trainers” program to improve
the ProDoc users’ effectiveness in using the tool.

A major part of M/OP’s strategy to providing support to ProDoc users is through
a web site, available within USAID, called the OP Solutions Center. A copy of
the OP Solutions Center front page for ProDoc is shown in Figure 7.

Figure 7 – OP Solutions Center Front Page for ProDoc
This image is described in detail in the narrative that follows.




The OP Solution Center is a starting point for several kinds of information. As
seen in Figure 7 on the left side of the page, the ProDoc front page includes links
to frequently asked questions (FAQs), Quick Guides, Useful Links, Release
Notes, Data Transmission, and E-mail support.

The FAQs page includes “how to” advice on working in the Document Content
Manager and in the Custom Text Manager, on printing, and on miscellaneous
functions such as changing numbering styles and exporting documents. Figure 8
shows some of the FAQs available.




                                                                                18
Figure 8 – FAQs This image is described in detail in the narrative that follows.




The FAQs pages address functionality questions that could occur in any kind of
document being created. The Quick Guides page provides links to step-by-step
instructions for completing different types of documents. The Quick Guides page is
shown in Figure 9.




                                                                                   19
                 Figure 9 – Quick Guides This image is described in detail in the narrative that follows.




                 The other three pages of the OP Solutions Center, Useful Links, Release Notes, and
                 Data Transmission, are self-explanatory. The Useful Links page contains links to
                 pages that ProDoc users may need while preparing a document. The Release Notes
                 page contains information on and links to current ProDoc software versions.
                 Finally, the data transmissions page explains the reasons why procurement data
                 needs to be collected.

                 For situations not answered through the pages of the OP Solutions Center, ProDoc
                 users have access to M/OP’s support staff via phone or e-mail. Their contact
                 information is prominently displayed on the OP Solutions Center web pages.


Management       USAID’s Bureau for Management/Office of Procurement agreed with the
Comments and     recommendations in this report. Management decisions will have been made
Our Evaluation   once M/OP has developed and the Office of Inspector General has concurred on a
                 firm plan of action to implement the recommendations. The Office of
                 Management, Planning, and Innovation will determine final action after the
                 recommendations have been implemented.

                 Management comments are included in their entirety in Appendix II of this report.



                                                                                                   20
                                                                                   Appendix I


Scope and     Scope
Methodology
              The Regional Inspector General, San Salvador audited the ProDoc
              Implementation in the Latin America and Caribbean (LAC) Region in accordance
              with generally accepted government auditing standards. The audit focused on
              issues raised by ProDoc users in the LAC region. The audit did not cover a
              period of time but reflected user’s views and perceptions as of the date they
              completed questionnaires. Questionnaires were typically returned to the Regional
              Inspector General between October 31 and November 15, 2002.

              Audit work was conducted from October 21, 2002 through January 16, 2003 at
              USAID’s offices in Washington and at Distributed Solutions, Incorporated’s
              offices in Herndon, Virginia. Questionnaires were sent to missions listed on the
              USAID Bureau for Management/Office of Procurement “Overseas Contracting
              Officers” list as of September 24, 2002. Those missions were as follows:

                      •   Bolivia
                      •   Dominican Republic
                      •   Guatemala
                      •   Peru
                      •   El Salvador
                      •   Colombia
                      •   Honduras
                      •   Nicaragua


              Methodology

              Through interviews with M/OP officials, we evaluated the significance and
              sensitivity of procurement activities at USAID and the susceptibility of
              documents to contain inaccurate, invalid, untimely, or incomplete information.
              We then evaluated M/OP’s controls that were implemented to ensure the
              reliability of procurement documents.

              To answer the audit objectives, we sent questionnaires to contracting officers in
              the LAC region. We accumulated, classified, and analyzed the responses to
              identify ProDoc issues. We also interviewed Bureau for Management/Office of
              Procurement (M/OP) officials. After analyzing the responses from ProDoc users,
              we determined the significance of our findings based on our judgement and the
              number of responses mentioning similar issues.

              To substantiate certain issues identified in the questionnaires we statistically
              sampled two populations. Both tests were designed to give 95 percent confidence
              with a plus/minus precision rate of 4 percent and an expected error rate of 5



                                                                                            21
                                                                     Appendix I

percent. For the first test, we selected 99 of 725 clauses included from the
Federal Acquisition Regulations (FAR) clause matrix to determine if the ProDoc
clause library was complete. For the second test, we selected 107 out of 1,564
text segments from the ProDoc clause library to determine if they were free from
spelling and grammatical errors (compared to source documentation) and to
determine if they free from formatting errors. We performed this substantive
testing to support what we learned from the questionnaires and from management
interviews. Nevertheless, the majority of our conclusions are based on assertions
made by ProDoc users and by M/OP management.




                                                                              22
                                                                                           Appendix II


Management
Comments

       May 02, 2003

       MEMORANDUM

       FOR:            Kurt Clark, Acting RIG/San Salvador

       FROM:           Tim Beans, M/OP/OD Director

       SUBJECT:        Audit of USAID’s Implementation of the Professional Document System in the
                       Latin America and the Caribbean Region (Report No. 1-XXX-03-00X-P, dated
                       March 6, 2003)

       This memorandum is in response to your draft report issued on the above date to the Management
       Bureau, Office of Procurement.

       We have reviewed the Audit of USAID’s Implementation of the Professional Document System
       in the Latin America and the Caribbean Region, dated March 6, 2003. The report is quite
       comprehensive and provides a unique and independent user perspective. It is an excellent
       customer feedback review and offers the Office of Procurement support unit an excellent
       opportunity to improve on the delivery of training and support services to ProDoc users.

       While we are pleased with the audit report please be reminded that ProDoc is not an automated
       procurement system that captures the lifecycle of the acquisition and assistance business process.
       It is only a document preparation system that has been expanded to collect Mission procurement
       data in the absence of an automated system for reporting purposes. As the auditors discovered,
       ProDoc is being used to provide a level of consistency and standardization in all of our
       procurement documents around the world. It is not perfect but has enabled us to minimize errors
       and helped to create standard procurement clauses used in our procurement documents.

       We have taken the audit findings and recommendations and have proceeded with the
       recommended improvements. Our Policy division some time ago implemented formal
       procedures for coordinating with our Support unit to ensure that proper attention is given to any
       changes that may affect ProDoc. We have also updated the Solution Center website to reflect
       current release notes and a current version of ProDoc is downloadable from the Solutions center
       site. This will enable all Missions to maintain the most current version of the software. We will
       continue to track customer satisfaction and measure how well we are performing against those
       recommendations.

       It was a pleasure working with John Vernon of the Regional Inspector General’s (RIG) Office
       and our colleagues in the Latin American and Caribbean Region on this audit. This type of
       independent collaboration and feedback are needed as the Management Bureau proceeds with the
       Agency’s business systems modernization goals.




                                                                                                       23
                                                                          Appendix II

Thank you for the opportunity to provide comments and I look forward to our continued
collaboration concerning the Office of Procurement customer service efforts in the area
of procurement information management and technology.

Sincerely,



Timothy T. Beans, Chief Acquisition Officer
Management Bureau
Office of Management and Assistance




                                                                                      24
                                                                                    Appendix III


Questionnaire   This appendix contains a copy of the questions sent to the contracting officers at
Content         the USAID missions for Bolivia, the Dominican Republic, Guatemala, Peru, El
                Salvador, Colombia, Honduras, and Nicaragua. A summary of the issues we
                noted in the responses from the missions and the Bureau for Management/Office
                of Procurement’s comments are included in Appendix IV. The complete text of
                the responses we received from the missions are included in Appendix V.

                Question
                1. What version of ProDoc is installed at your mission?

                   You can get the version from the login screen (i.e. ProDoc 5.1, release
                   5.12(a), FAC 2001-06)

                2. Where did you receive ProDoc training?

                3. When did you receive ProDoc training?

                4. When did you start using ProDoc?

                5. In what ways did training help prepare you to use ProDoc?

                6. What difficulties do you encounter when deciding what Document Type and
                   Document Class you should use for documents you create?

                7. What difficulties do you encounter when answering Dialog questions in
                   ProDoc?

                8. What difficulties do you encounter when working in the Content Manager in
                   ProDoc?

                9. What difficulties do you encounter when inserting customized text or clauses
                   through the Custom Text Manager in ProDoc?

                10. What difficulties do you encounter editing clauses in ProDoc?

                11. What difficulties do you encounter filling in ProDoc generated forms?

                12. What difficulties do you encounter printing documents from ProDoc?

                13. Do you do a significant amount of document editing in Word after the
                    documents are created in ProDoc?

                   If so, why is the editing step necessary?



                                                                                               25
                                                                    Appendix III

Question
14. How does ProDoc improve your efficiency in creating procurement
    documents?

15. How does ProDoc improve the quality of the documents you create?

16. Generally, does ProDoc include clauses and policies that are needed for the
    document?

   If not do you have any examples (complete with the ProDoc Dialog history)
   that you could send by e-mail?

17. Generally, does ProDoc include clauses and policies that are not needed for
    the document?

   If not do you have any examples (complete with the ProDoc Dialog history)
   that you could send by e-mail?

18. Generally, does ProDoc include clauses and policies that are free from
    misspellings or other inaccuracies?

   If not do you have any examples (complete with the ProDoc Dialog history)
   that you could send by e-mail?

19. Generally, does ProDoc include clauses and policies that are up to date?

   If not do you have any examples (complete with the ProDoc Dialog history)
   that you could send by e-mail?

20. What difficulties do you encounter using the Edit Check function?

21. According to your understanding, what is the significance of providing
    Federal Procurement Data System (FPDS) reporting information?

22. What difficulties do you have using the ProDoc Help function?

23. What ProDoc resources are available to you to help solve problems?

   Which are most useful to you when you encounter problems with ProDoc?

24. Is there anything else you would like to share with us about ProDoc?

25. Could you describe your experience as a procurement/contracting specialist?




                                                                                  26
                                                                                                                            Appendix IV




Questionnaire   The issues from the 19 questionnaires received from Latin American and Caribbean Region users are summarized
Results         in the table below. The summarization in the “Item” column is based on the impressions and judgement of the
                auditors involved in this project. The numbers in the second column are references to answers received on
                questionnaires. All answers to the questionnaires we received are included in Appendix V. For example, 1.F1
                corresponds to question number 1, response number F1 presented in Appendix V. The comments in column 3 are
                comments from Bureau for Management/Office of Procurement officials.

                 Item                                         Based on questionnaire     M/OP comment on item noted
                                                              response number:
                 Most of the questionnaire respondents were   1.F1; 1.F2; 1.F3; 1.F5;    ProDoc can be downloaded at the OP
                 using ProDoc version 5.13(b). This was       1.F6; 1.F7; 1.F9; 1.F10;   Solution Center Website. Latest release
                 also the version available on October 30,    1.F11; 1.F12; 1.F13;       notices are located at the same.
                 2002 on the USAID web site when we           1.F14; 1.F15; 1.F16;       Additionally, CDs are mailed to the
                 downloaded the software. Of note, version    1.F18; 1.F19               Missions with each release. Version
                 5.13(b) was based on FAC-08 that took                                   5.14(a) released 11/27 contained FAC-09
                 effect July 29, 2002. FAC-09 took effect                                (effective 8/30).
                 September 30, 2002. The current FAC (as
                 of 11/27/02) is FAC-10 effective 11/22/02.
                 On December 10, 2002, we downloaded
                 version 5.14(a) based on FAC-09.

                 One mission in the LAC region was using      1.F8                       Mission responsibility per CIB 01-16
                 ProDoc version 5.11 (e) based on FAC
                 2001-04 with an effective date of February
                 20, 2002.

                 Missions may not be using the most recent
                 version of ProDoc when it is available.
                 Training was an overview that did not        3.F1; 5.F3; 5.F5; 5.F8;    Regional Sessions were for "Train the
                 prepare the user to maximize ProDoc’s        5.F12; 5.F14; 5.F16;       Trainers", attendees were trained to

                                                                                                                                 27
                                                                                                               Appendix IV


Item                                           Based on questionnaire M/OP comment on item noted
                                               response number:
functionality in creating documents.           5.F17; 6.F8; 9.F17;    return to mission to train their fellow
                                               12.F3                  staff. Training has never been an
ProDoc users may not have received the                                overview; courses were very specific and
necessary training to use the software                                in-depth.
effectively.
ProDoc users noted that determining the     6.F1; 6.F4                    Historically we have found that
document class for certain document classes                               Procurement Training can be an issue. If
(PSCs and Modifications) is confusing or                                  you are not aware of the different
restricted.                                                               procurement types, you are hindered in
                                                                          locating the appropriate action types.
Users may select an inappropriate document
type and class when creating procurement
documents.
Users noted that there is not an option for    6.F1; 6.F2; 6.F4; 6.F5     PASA – During the training,
PASA modifications, PAPAs, nor Purchase                                   Modifications are covered. Also located
Orders over $25,000.                                                      in the web-training and the OP Solution
                                                                          Center.
Functionality in ProDoc for certain types of                              PAPAs - coming from Policy Office, due
procurement documents may not exist.                                      to be included in the March release.
                                                                          POs - OF 347 is not contingent on $
                                                                          amount
Some questions asked in ProDoc during the      7.F1; 6.F2; 7.F2; 7.F12;   Procurement Professionals should be
Dialog Session to create documents are         7.F13; 7.F17; 7.F18;       aware that questions need to be asked
confusing.                                     7.F19                      even if they seem “out of place”. ProDoc
                                                                          creates the “shell” and includes all of the
ProDoc users may unknowingly incorporate                                  mandatory clauses, users must be aware
or omit necessary clauses from their                                      of the clauses that need to be added based
documents.                                                                on their specific procurement.
A single user noted that having to look up     7.F3                       Web is accessible within ProDoc.
codes via the Internet is “frustrating and                                ProDoc is not responsible for the hyper-
                                                                                                                  28
                                                                                                              Appendix IV


Item                                           Based on questionnaire M/OP comment on item noted
                                               response number:
difficult” because of poor Internet access                            links to web-sites outside of the Agency.
from the mission.                                                     All COs should have a hard copy of the
                                                                      necessary reference documents within
Web-based versions of ProDoc may need to                              their office in lieu of the web.
be field tested and possible contingencies
identified.
Some questions asked in ProDoc during the      7.F1; 7.F4; 7.F6; 7.F8;   ProDoc cannot know all of the nuances
Dialog Session to create documents are         7.F9; 7.F10; 7.F12;       of each action, thus seeming irrelevant
irrelevant.                                    7.F15; 7.F16; 7.F18       questions may be necessary.

The implication is that ProDoc users may
resent spending their time ineffectively (or
perceive that they are wasting their time).
Some ProDoc clauses include poor               7.F8                      In the process of "cleaning" the clause
grammar.                                                                 library. The vendor has been notified.

The implication is that documents have to
be corrected before they can be issued.
Having to visit external web sites to find     7.F3; 7.F11               Site available within ProDoc (via Web)
some codes that are required during data                                 or they have the option to use hard copies
entry frustrates some users.                                             located in the Mission.

The implication is that ProDoc users resent
spending their time ineffectively (or
perceive that they are wasting their time).
Incorporating foreign currencies into forms    8.F1; 8.F17               Have offered a "work-around." Can be
is problematic since the electronic forms do                             found in the frequently asked questions
not have enough spaces to hold required                                  on the OP Solutions Center Website.
information.


                                                                                                                   29
                                                                                                                Appendix IV


Item                                          Based on questionnaire M/OP comment on item noted
                                              response number:
Forms may have to be manually completed
outside of ProDoc.
Users noted the following difficulties with   8.F1; 8.F7; 8.F8          1) Capability is available. Instructions
the Content Manager.                                                    located on the Web.

•   Not enough continuation pages                                       2)Unaware of this error (i.e.)` under
                                                                        review in duplication
•   The name of the CO does not always
    appear on the document                                              3) As is should appropriately.

•   Sometimes when clauses are excluded
    the final document has the wording “not
    included.”

The implication is that some document
preparation activities have to be completed
outside of ProDoc.
Some users circumvent the Content             8.F8; 8.F11               Everything a user can do in "Word" they
Manager in favor of manipulating the                                    have the ability to do in ProDoc.
document in a word processor.

The implication is that some document
preparation functionality may be missing
from ProDoc.
Contracting and procurement professionals     9.F1; 9.F3; 9.F6; 9.F8;
choose not to use the Custom Text             9.F10; 9.F11; 9.F14;
Manager. They find it “extremely              9.F19
difficult,” “clumsy,” and “not friendly.”
Instead, work is done in a word processor.

                                                                                                                   30
                                                                                                               Appendix IV


Item                                            Based on questionnaire M/OP comment on item noted
                                                response number:
The implication is that some document
preparation functionality may be missing
from ProDoc.
ProDoc users noted the following                11.F1; 11.F2; 11.F3;      1) Server issue? Memory Issue…could
difficulties with filling in ProDoc generated   11.F5; 11.F7; 11.F8;      be a network communications issue.
forms:                                          11.F9; 11.F11; 11.F12;
                                                11.F13; 11.F14; 11.F15;   2) Spaces may be controlled for FPDS
•   Moving from one block to the next is        11.F16; 8.F17             reporting and/or form size and space
    slow at times.                                                        positioning may be controlled by GSA.
                                                                          (GSA forms)
•   Forms do not contain enough spaces for
    data at times.                                                        3) ProDoc never intended to do
                                                                          algorithms.
•   Formulas cannot be created in the
    forms.
                                                                          4) Tables? There are no tables in
•   Tables cannot be used as forms.                                       ProDoc.

•   Lines cannot be added/deleted from                                    5) Standard forms with font restrictions
    forms.                                                                as per GSA format.

•   Font sizes are too small and cannot be                                6) font sizes - standardized
    changed.
                                                                          7) Critical information – unaware of this
                                                                          information.
•   Some critical information must be input
    manually to the form.
                                                                          8) Print forms only (twice)
•   No “3 sheets form”
                                                                          9) Have had the ability for the past 1-2
                                                                          versions.
•   Forms cannot be transmitted
                                                                                                                     31
                                                                                                              Appendix IV


Item                                          Based on questionnaire M/OP comment on item noted
                                              response number:
   electronically

The implication is that some document
preparation functionality may be missing
from ProDoc.
Printing individual pages of documents is     12.F9; 12.F10; 12.F11;    Ability is there - can specify page
not possible through ProDoc.                  12.F12; 12.F18            number in the Print screen area.

As a result, paper may get wasted printing
unneeded pages.
Fonts and margins are inconsistent when       12.F7; 12.F11; 12.F13;    Font sizes change with the headers.
printing through ProDoc.                      12.F19                    Documents copied and pasted, must be
                                                                        formatted for consistency - or total
The implication is that word processing may                             document can be formatted at the
be needed to finish the document.                                       printing phase.

                                                                        Ability to change margins as well.
Significant editing of ProDoc documents in    10.F1; 10.F4; 10.F11;     ProDoc has the ability and the
a word processor is required to produce the   10.F12; 10.F16; 10.F17;   instructions are located on the Web sites
final document. Users avoid editing in        10.F18; 9.F19; 13.F1;     as indicated previously.
ProDoc.                                       13.F2; 13.F3; 13.F5;
                                              13.F6; 13.F7; 13.F8;
The implication is that some document         13.F9; 13.F10; 13.F11;
preparation functionality may be missing      13.F12; 13.F14; 13.F18
from ProDoc.
ProDoc improves the efficiency of creating    14.F1; 15.F1              Can only build a starting document based
documents and the quality of documents by                               on the dialog, user has to enhance based
providing “the skeleton of the document.”                               on specific need. - Procurement
                                                                        Training?
The implication is that ProDoc users may be
                                                                                                               32
                                                                                                           Appendix IV


Item                                         Based on questionnaire M/OP comment on item noted
                                             response number:
only using basic software functionality.
ProDoc users indicated that the software     14.F4; 14.F5; 14.F6;
helps improve efficiency.                    14.F7; 14.F14; 14.F15;
                                             14.F16; 14.F19
ProDoc users indicated that the software     14.F8; 14.F9; 14.F10;     Once users are trained in how to properly
impairs or reduces efficiency in creating    14.F11; 14.F12; 14.F13;   use the system and receive sufficient
documents.                                   14.F17; 14.F18            practice, efficiency will increase.
ProDoc users indicate that the software is   14.F2; 14.F3
better than other tools USAID used in the
past.
ProDoc users indicate that the software      14.F4; 14.F6; 14.F15
improves the quality of documents by
incorporating current clauses.
ProDoc users indicate that the software does 14.F3; 14.F8; 14.F9;      Software was intended to increase
not improve the quality of documents.        14.F12; 14.F13; 14.F14;   standardization and efficiency. It has
                                             14.F17; 14.F18; 14.F19    been found to decrease the number of
                                                                       inconsistencies and deviations from
                                                                       Agency Policy.
Generally, ProDoc includes the clauses and   YES- 16.F4; 16.F6;        Some exceptions are needed based on the
policies that are needed in a document.      16.F7; 16.F11; 16.F14;    specific action.
However; some exceptions were noted.         16.F15; 16.F16

                                             NO- 16.F2; 16.F10;
                                             16.F12; 16.F19

                                             SOMETIMES- 16.F1;
                                             16.F3; 16.F8; 16.F9;
                                             16.F13; 16.F17; 16.F18
Even though ProDoc generally includes the    14.F10; 16.F3; 16.F9;     The Procurement Official has the
needed clauses and policies, contracting     16.F19                    responsibility to check each document
                                                                                                               33
                                                                                                               Appendix IV


Item                                       Based on questionnaire M/OP comment on item noted
                                           response number:
officers do not have confidence in ProDoc                         prior to signature. Users have the ability
and therefore manually check the ProDoc                           to make changes to all aspects of the final
created document against the FAR matrix or                        document. These changes are easily
other clause sources.                                             identified by using the Content Manager.

The implication is that ProDoc users may
not trust the reliability of ProDoc generated
documents.
Generally, does ProDoc include clauses that     YES- 17.F1; 17.F4;        ProDoc includes clauses based on the
are not necessary?                              17.F7; 17.F8; 17.F9;      way the user answers the dialog.
                                                17.F10; 17.F11; 17.F12;   Procurement Professionals should be
                                                17.F13; 17.F14; 17.F18    aware that questions need to be asked
                                                                          even if they seem “out of place”. ProDoc
                                                NO- 17.F2; 17.F16;        creates the “shell” and includes all of the
                                                17.F19                    mandatory clauses, users must be aware
                                                                          of the clauses that need to be added based
                                                SOMETIMES- 17.F3;         on their specific procurement.
                                                17.F6; 17.F15; 17.F17
Generally, does ProDoc include clauses and      YES- 18.F6; 18.F7;
policies that are free from misspellings or     18.F11; 18.F15; 18.F16;
other inaccuracies?                             18.F17

                                                NO- 18.F1; 18.F3;
                                                18.F5; 18.F8; 18.F9;
                                                18.F10; 18.F12; 18.F13;
                                                18.F18
Generally, does ProDoc include clauses and      YES- 19.F1; 19.F4;        Currently working with OP/Policy on
policies that are up to date?                   19.F6; 19.F7; 19.F14;     AAPD/CIB issues.
                                                19.F16; 19.F17; 19.F19


                                                                                                                  34
                                                                                                            Appendix IV


Item                                         Based on questionnaire M/OP comment on item noted
                                             response number:
                                             NO- 19.F2; 19.F5;
                                             19.F8; 19.F11

                                             SOMETIMES- 19.F3;
                                             19.F9; 19.F10; 19.F12;
                                             19.F13; 19.F15; 19.F18
ProDoc users note difficulty understanding   20.F2; 20.F8              Written and provided by PPDS folks. -
the questions asked during the Edit Check                              see FPDS website.
function.

As a result, ProDoc users might provide
incorrect responses.
ProDoc users perceive that the Edit Check    20.F3                     FPDS Issue - Are users filling-in the
function asks for redundant or irrelevant                              "data fields" that are carried over from
information.                                                           ProDoc into the FPDS Edit checks?
                                                                       Cutting down on double entry.
As a result, ProDoc users may resent
spending their time ineffectively (or
perceive that they are wasting their time).
ProDoc users mentioned that the Edit Check 20.F5; 20.F6; 20.F8;        FPDS Issue-Congressional mandate
function is not user friendly or had other    20.F10; 20.F12
usability problems.
ProDoc users may resent spending their
time ineffectively (or perceive that they are
wasting their time).
ProDoc users note that the Edit Check         20.F10; 20.F11; 20.F19   Number and complexity of questions are
function reduces the efficiency of using                               determined by Congress.
ProDoc to create documents because it is a
long process to complete.


                                                                                                                  35
                                                                                                             Appendix IV


Item                                            Based on questionnaire M/OP comment on item noted
                                                response number:
ProDoc users may resent spending their
time ineffectively (or perceive that they are
wasting their time).
ProDoc user noted that in spite of entering a   20.F11                   ProDoc is not a database. Though some
great deal of data into ProDoc, no reports                               info can be retrieved and transported FTP
are available.                                                           to headquarters data warehouse which is
                                                                         used as a central repository for Agency
Missions cannot query ProDoc for                                         reporting
procurement action information.
ProDoc users do not use or rarely use the       22.F1; 22.F2; 22.F4;     Why
on-line help function.                          22.F5; 22.F7; 22.F9;
                                                22.F10; 22.F11; 22.F12
ProDoc users note that help is not helpful.     22.F8; 22.F14
Help could be improved with links to web        22.F13; 22F18            Which websites?
sites.
ProDoc users noted available sources to         Local System
help solve ProDoc problems as indicated.        Administrator – 23.F1;
                                                23.F4; 23.F6; 23.F11;
                                                23.F14

                                                ProDoc Manuals or
                                                Training material –
                                                23.F2; 23.F3; 23.F4;
                                                23.F7; 23.F16

                                                ProDoc Help – 23.F2;
                                                23.F7

                                                Local Co-worker –
                                                23.F4; 23.F8; 23.F11;
                                                                                                               36
                                                                                                        Appendix IV


Item                                      Based on questionnaire M/OP comment on item noted
                                          response number:
                                          23.F10; 23.F11; 23.F17

                                          OP Support Team in
                                          D.C. – 23.F8; 23.F9;
                                          23.F10; 23.F11; 23.F12;
                                          23.F15; 23.F18; 23.F19

                                          DSI – 23.F8
                                          RegSearch – 23.F8

                                          OP Solution Center –
                                          23.F16; 23.F19

                                          Self- 23.F10
ProDoc Support in Washington does not     23.F9; 23.F12; 23.F18     OP/PS Policy to respond within 48 hrs of
provide timely answers to questions.                                request. Remedy is used to track these
                                                                    issues.
ProDoc Support in Washington provides     23.F11; 23.F15
timely answers to questions.
When asked to comment on anything about   Training was not          ProDoc was a COTS Package. It was
ProDoc they wanted to, users noted the    adequate – 24.F1;         meant to be used as an interim solution to
following:                                24.F11                    replace a DOS Based system that was no
                                                                    longer supported by the vendor. The
                                          Time is right for         intent of ProDoc was to bring some level
                                          additional training –     of consistency and standardization in
                                          24.F16                    Procurement Document preparation.
                                                                    ProDoc is approximately and 80/20 %
                                          ProDoc does not meet      solution. For document preparation. It
                                          mission needs – 24.F3;    covers 80-% of clauses and formatting
                                          24.F8                     requirements by the agency. It also has

                                                                                                           37
                                                                    Appendix IV


Item   Based on questionnaire M/OP comment on item noted
       response number:
                                the ability to assist with that 20% that
       ProDoc is generally      must be created by use of a “work-
       disliked – 24.F3; 24.F9; around”. Workarounds are explained in
       24.F11; 24.F12; 24.F18; the training and readily available on the
       24.F19                   web. Users that receive training and the
                                proper use of ProDoc and continue to
       ProDoc asks redundant    generate documents on a consistent basis
       questions – 24.F4        will have increase their efficiency and
                                allow for better time management. The
       ProDoc provides an       final documents will be superior to those
       initial framework –      in the past and consistent across
       24.F6                    procurement. ProDoc is not a database;
                                ProDoc is not a reporting tool. ProDoc
       ProDoc needs formulas does not contain spreadsheets and
       and more continuation    algorithms. ProDoc does not provide
       pages –24.F7             foreign currency conversion. These are
                                business processes that are normally
       ProDoc questions are     found in a fully automated procurement
       confusing – 24.F8        system, which ProDoc is not. Until such
                                time that the Agency decides to invest in
       ProDoc reporting is not a new procurement system, this is the
       accurate – 24.F8         available system for the Agency. We
                                will continue to work with users and the
       ProDoc should not limit vendor to review and make corrections to
       the number of            ProDoc. We will continue to provide
       documents that can be    regional training as the budget allows.
       created – 24.F8          And we will continue to update the OP
                                Solutions Center and version notes to
                                make ProDoc the best document
                                generation tool that we can.

                                                                      38
                                                                                                          Appendix V


Individual                   This appendix includes the answers given by mission employees in response to
Questionnaire                the questionnaire at Appendix III. The questions are numbered 1 through 24 and
                             bolded. The individual answers for respondents are listed below the question and
Responses                    are identified as F1 through F19. We did not correct spelling or grammar in this
                             presentation. Acronyms used in the responses are defined in Appendix VI.

                              1. What version of ProDoc is installed at your mission?
                                 F1 513 (b)
                                 F2 We have ProDoc release 5.13(b), FAC 2001-8.
                                 F3 5.13 (b)
                                 F4 Prodoc 5.1
                                 F5 ProDoc 5.13(b) 8-07-2002
                                    FAC 2001-8 8-16-02
                                 F6 5.13(b)
                                 F7 ProDoc 5.13(b)
                                F8λ 5.11(e) of 1/11/2002
                                    FAC 2001-04 02-13-2002

                                        The Mission System Manager will install the newest version into the
                                        server this week (Nov. 19, 2002)
                                  F9    ProDoc 5.1 5.12(b) θ
                                 F10    5.1 release
                                        5.13 (b) FAC 2001-08
                                 F11    5.13(b)
                                        FAC 2001-8
                                 F12    ProDoc 5.1, Release 5.13(b), FAC 2001-8
                                 F13    5.1 release 5.13(b) FAC 2001
                                 F14    Prodoc 5.1
                                        Release 5.13 (b)
                                        FAC 2001-8
                                 F15    ProDoc 5.1, release 5.13 (b), FAC 2001-8
                                 F16    5.13 (b)
                                 F17    8.12B
                                 F18    5.1 release
                                        5.13 (b)
                                        FAC 2001-08
                                 F19    5.1
                                        5.13 (b)
                                        as of Nov 11, 2002



λ
    The responses provided on this questionnaire is a group effort by 5 ProDoc users in an LAC mission
θ
    Verified with the user that this was a typographical error. Version being used is actually 5.13(b).


                                                                                                                  39
                                                                   Appendix V


2. Where did you receive ProDoc training
   F1 Washington, D.C.
   F2 La Paz, Bolivia
   F3 At the Mission, from the person we sent to Bolivia for the formal
      training.
   F4 In-house
   F5 Regional Course in La Paz, Bolivia
   F6 USAID/HONDURAS
   F7 USAID/Honduras, Tegucigalpa, Computer Room
   F8 TOT: La Paz Bolivia
      Other Mission Users: USAID/Guatemala Premises
   F9 USAID/El Salvador
  F10 RCG Office/El Salvador
  F11 USAID/San Salvador
  F12 USAID/El Salvador
  F13 La Paz, Bolivia
  F14 In house training & selftraining
  F15 USAID/LA PAZ MISSION
  F16 La Paz bolivia
  F17 USAID’s mission in Bogotá (4 hours)
  F18 El Salvador
  F19 Honduras

3. When did you receive ProDoc training?
   F1 Just 3 hours prior to the CO Conference, but I wouldn’t call it
      training as it concentrated on troubleshooting. I learned to use the
      system on my own.
   F2 May 21-25, 2001
   F3 June 2001
   F4 06/11/2001
   F5 May 2001
   F6 10/07 – 10/11/2002
   F7 October 7-11, 2002
   F8 TOT: March 2001
      Other Mission Users: June 2001
   F9 November 2001
  F10 January 2002
  F11 October 2001
  F12 October 2001
  F13 May 2001
  F14 August 2001
  F15 May 21-25, 2001
  F16 May 21-25, 2001


                                                                             40
                                                                  Appendix V

3. When did you receive ProDoc training?
  F17 June 2002
  F18 October 2001
  F19 Oct 2002

4. When did you start using ProDoc?
   F1 June 4, 2001
   F2 About one year ago.
   F3 June 2001
   F4 Right after the training, even though it was not mandatory until
      October 1, 2001.
   F5 September 2001
   F6 10/01/2001
   F7 October 2001
   F8 TOT and All Mission Users: July-August 2001
   F9 November 2001
  F10 January 2002
  F11 October 2001
  F12 1 October 2001
  F13 October 2001
  F14 Sep 2001
  F15 Testing on or about Jun – Jul 2001 – Producing Document October
      2001.
  F16 August 2001
  F17 September 2002
  F18 October 2001
  F19 Oct 2000


5. In what ways did training help prepare you to use ProDoc?
   F1 N/A
   F2 Without it, I wouldn’t have known how to use it.
   F3 It got me started, though the ToT approach meant that only one out
       of the four of us got enough training.
   F4 The training help me understand how to use the different features of
       this new system. Also, the trainers gave us a manual and a list of
       NAIC Codes and Product Service Codes, which I think are essential
       to answer the related questions.
   F5 Get acquainted to the new program and familiar with the manual.
   F6 It helps me to make better use of PRO-DOC system.
   F7 Providing all clauses that an instrument need
   F8      1. It was just an overview and the manuals provided were not
               complete and not much helpful. We learned more by
               practicing and commenting our doubts with our colleague in


                                                                             41
                                                                    Appendix V

5. In what ways did training help prepare you to use ProDoc?
              charge of ProDoc.
           2. It helped me to get familiar with the system and to use it.
           3. It introduced me to the basics of how to use the system,
              however, we did not “practice” it enough to really face the
              problems that we faced later and therefore, we could not get
              the orientation during the training on how to resolve these
              problems. It was like only showing the top of an iceberg and
              not really what we were going to be really facing.
   F9 To learn how to use it.
  F10 To learn how to use it.
  F11 To access the system, to generate documents, search for
       information.
  F12 To learn the basics on how to use the program.
  F13 To learn how to use it.
  F14 Knowing first steps to enter program
  F15 It gave us the chance to understand how the program it functions
       and how it can work.
  F16 I was able to survive the frustrating “cut over” period when the
       system was being debugged. I resorted to my e-mail network and
       was able to draw on the collective memory of my colleagues who
       were trained in May.
  F17 We got an overall view of the system
  F18 To learn how to use it.
  F19 Understand system logic, options, processes.

6. What difficulties do you encounter when deciding what Document
   Type and Document Class you should use for documents you create?
   F1 The only problem that I’ve encountered to date is when it comes
      down to selecting the contract types and if I’m doing a PSC, the
      only option available is the level of effort category. Also, the fact
      that the dialogue talks about formula versus project grants is
      confusing. Task Orders are not differentiated from a delivery order,
      and a PASA modification option is just not there.
   F2 The difficulties I encounter have to do with trying to interpret what
      the system means. For example, when doing a Modification, does
      the classification apply to the Modification or to the basic Contract ?
      More detail should be given in the description block.
   F3 Not many.
   F4 When writing PSCs it is usually hard to decide whether it is a
      Definitive Contract or a New Definitive Contract, for example.
      Also, there is no categories for Purchase Orders above 25,000.00
   F5 “NEW AWARD: INTERAGENCY AGREEMENTS”, there is no
      chance to enter into a Participatory Agency Program Agreement
      (PAPA). See Revised ADS 306.3.2.12.”


                                                                                42
                                                                    Appendix V

6. What difficulties do you encounter when deciding what Document
   Type and Document Class you should use for documents you create?
   F6 I used to have problems for task orders.
   F7 None
   F8 1.Originally, there was not an RFA in Prodoc. Actually there is not
      a sample for Request for Task Proposals in Prodoc, so each Mission
      has to use their own format for this purpose. The system is still in a
      changing mode, so we really are not standardizing all documents.
      However, it was easy to follow the steps to find the type of
      documents that are in Prodoc. I still think that in this Mission we
      are not using Prodoc at its full capacity.
      2. None
   F9 None.
  F10 No difficulties
  F11 Do not have difficulties in deciding. Normally that decision is made
      outside ProDoc.
  F12 None.
  F13 None.
  F14
  F15 None
  F16 None
  F17 None
  F18 None
  F19 • FSN PSC contracts lacked Appx J clauses
      • Formatting issues
      • general complexitites

7. What difficulties do you encounter when answering Dialog questions
   in ProDoc?
   F1 The questions at times are difficult to understand. The not fully
       bilingual staff has problems and get confused. There are questions,
       which are not applicable to the agency. At instances when you
       select PSC, the dialogue will ask if the contract is performance
       based or not.
   F2 Again, difficulties in the interpretation.
   F3 Looking up those codes is very frustrating and difficult. The system
       is obviously built for places that have instant and excellent Internet
       connections, not the field.
   F4 Most questions do not apply, especially if it is a local procurement.
       Maybe an inquiry on whether the procurement is local or not could
       help.
   F5 None
   F6 Some questions do not belong to the type of contract that has been
       selected.



                                                                                43
                                                                    Appendix V

7. What difficulties do you encounter when answering Dialog questions
   in ProDoc?
   F7 When issuing a modification ProDoc ask for an award date, but it
       does not specify this date if for the original award or the
       modification date.
   F8      1. Some of the questions are not clear enough. For example,
                “give the TEC”: we do not know if the system is asking for
                the previous TEC or the “increased” TEC for that particular
                action. We have also noticed that when the system asks if
                the action is with a Non-US entity, it stills asks questions
                applicable only for US, like if the firm is a Small Business,
                Veteran, etc.
           2. Bad Grammar.
           3. Too many questions.
   F9 Some questions are confusing and ambigious. Many questions don’t
       apply in all cases.
  F10 It takes too much time for unnecessary questions (some are
       repetitive), most of them do not apply to what you’re doing and
       some are ambiguos
  F11 Many. Specially when trying to answer the NAIC, FPDF, CFDA,
       FIPS codes which cannot be selected from the ProDoc system but
       one needs to go to another web site to search for the information and
       even though one believes that has selected the right code, it seems
       that there is inconsistency among users.
  F12 Some questions are ambiguous/confusing, and others don’t apply to
       overseas Missions.
  F13 Some questions are ambiguous and confusing. Other questions do
       not apply to Overseas Missions.
  F14 Ambiguous answer . if you go to help there is nothing to guide you
  F15 Some of the questions do not apply to field Missions.
  F16 The system still has too many “dummy” questions which lengthen
       the dialog process. I recommend that someone who actually creates
       documents daily be contracted to debug the dialog.
  F17 Some questions were vague and confusing, could be answered in
       two opposite ways, that has changed and improved a lot.
  F18 Some questions are ambiguous and confusing and others don’t apply
       in all cases.
  F19 • Double negative questions

8. What difficulties do you encounter when working in the Content
   Manager in ProDoc?
   F1 The name of the CO at times does not appear on the document..
      There are times where the amounts are not accepted by the system.
      Incorporating Colombian currency is a big task, as the forms do not
      have the size to hold the entire amount.


                                                                                44
                                                                      Appendix V

8. What difficulties do you encounter when working in the Content
   Manager in ProDoc?
   F2 So far, my difficulty when working in the Content Manager has
      been: getting updated Standard Provisions from the Clause Library.
      Also, not all the sections appear in Grants/Agreements (for example,
      the Geographic Code Section).
   F3 Not too many
   F4 None
   F5 I don’t use very much this section
   F6 None
   F7 There is no enough continuation pages
   F8      1. The content manager separates each section from each other.
               I usually save the document generated in Prodoc in Word,
               trusting that it includes all the required clauses, based on the
               answers given, and then arrange the document and make
               changes in the font, etc, or add some special language for
               local procurements, and then import this whole word
               document into the Prodoc Content Manager.
           2. Sometimes when you are creating the final document and
               you don’t want to include some clauses, the final document
               has the wording “not included” and then you have to re-do
               the format on your own.
   F9 None
  F10 None
  F11 It is not flexible, once you have selected the type of contract, there is
      no room for adjustment. So, I decided to work all of my documents
      outside the content manager. I have worked them in word processor
      and then I import the document into one of the sections of the
      contract.
  F12 None.
  F13 None.
  F14
  F15 None
  F16 None
  F17 Not enough room for local currency, because of this, figures must be
      typewrited hence the system does not add them up, too much space
      between the rows, no undo option available, no possibility to insert
      rows, no bold option available, there is no “3 sheets form” with
      possibility to include 20 items on each sheet available, some
      questions do not correspond to Purchase Orders, very slow, even
      though the PO is in status OK, when trying to send the report to
      WAS some can’t be transmitted and one must guess where the
      problem is, Orders disappear from one day to another, the values in
      the dialogue disappear and the order continues to be in status OK,
      procurement over U$25,000 does not exist in the selection list.


                                                                                  45
                                                                  Appendix V

8. What difficulties do you encounter when working in the Content
   Manager in ProDoc?
  F18 None
  F19 My staff does this for me.

9. What difficulties do you encounter when inserting customized text
   or clauses through the Custom Text Manager in ProDoc?
   F1 The editing is extremely difficult, and the system tends to reject
        complex word files.
   F2 None.
   F3 It is just a clumsy system.
   F4 What I use is the feature called “Insert and Replace,” of the Content
        icon and find no difficulties using it.
   F5 None
   F6 Custom Text is not friendly to use, too many signs.
   F7 none
   F8       1. I barely use this option, because I trust that Prodoc
                incorporates all the required clauses.
            2. I still don’t know the difference between Custom Text and
                Content Manager. I do not use Custom Text, I prefer to use
                the Content Manger and insert documents in Word format
   F9 None
  F10 It takes too much time to do a reg search or clauses, by the time the
        system responds you could have done it twice, and you do not get
        the clause or reg. Name just the number which makes it more
        complicated and it is very time consuming.
  F11 I do not use this part, since I work it outside. See No. 8 above.
  F12 None.
  F13 None.
  F14 Does not work as a word document and sometimes margins don’t fit
        the paper size
  F15 None
  F16 None
  F17 Hasn’t done it. This possibility was never explained.
  F18 None
  F19 Prodoc formats are rigid. However, saving to document in word
        makes it easier to manipulate.

10. What difficulties do you encounter editing clauses in ProDoc?
    F1 Extremely difficult. I don’t even try it.
    F2 Have not done it.
    F3 Not many
    F4 I don’t use editing.
    F5 None


                                                                              46
                                                                    Appendix V

10. What difficulties do you encounter editing clauses in ProDoc?
    F6 None.
    F7 none
    F8     1. Same as No. 9 above
           2. The difficulty with this is that clauses are not usually
               updated, and we have to check them against the regulation.
    F9 See answer 13.
  F10 Same as above
  F11 I avoid this by working it outside. I do the editing in word
       processing.
  F12 We can’t edit clauses in ProDoc. We need to export them into Word
       in order to edit them.
  F13
  F14
  F15 None
  F16 Most of the documents I create in ProDoc are saved as Word
       Documents which I have no difficulties editing.
  F17 The format of the clauses can’t be changed. If one wants i.e.: justify
       or block text, on may not change it and appears totally indented.
  F18 They can’t be edited, you need to change them to word.
  F19 see above.

11. What difficulties do you encounter filling in ProDoc generated
    forms?
    F1 The speed. When you go from one block to the nest is at times
        slow.
    F2 Not enough space sometimes.
    F3 Sending them electronically is not possible, which means we have to
        print and scan. A process that is duplkicative and unweildy leading
        to a very sloppy looking final product.
    F4 None
    F5 Some spaces are not wide enough for the information needed.
    F6 None.
    F7 No formulas
    F8      1. The most problematic issue here is that when I have entered
                the information in Prodoc, specifically in a form, and I
                realized that I have to make changes, add or delete
                paragraphs, I need to retype the whole document again
                because the system does not allow me to add/delete lines in a
                form (specifically Mod Forms), so if I am in the
                “continuation page” of a Mod. and I have to add two new
                paragraphs to my doc, I have to retype everything again.
                Also the system does not allow to use tables in a form, if we
                use tables, we have to add them as a word document in an



                                                                                47
                                                                       Appendix V

11. What difficulties do you encounter filling in ProDoc generated
    forms?
                attachment and import the word document into the Prodoc
                document.
            2. Font and size cannot be formatted and the letter is too small.
                Also, the fill-ins space is less than what the form can give us.
                There should be more space and a way to format font and
                size; also, we should be able to do tables or use tabs.
                (clarifications: the TOT followed the instructions to change
                font/size but it did not work)
    F9 Not enough space permitted by the system even though there is
        plenty of space on the page (when printed). Font is too small and
        cannot be changed. Cannot insert of delete lines – changes need to
        be made the whole thing needs to be redone.
  F10
  F11 First page generated forms are o.k. Except that working in tables
        turns very difficult and changing fonts is just impossible.
  F12 The form does not provide enough space to input information. The
        font is very small and even smaller on the second page of the forms.
        We’ve unsuccessfully tried to change the font. Also, lines cannot be
        deleted or inserted.
  F13 There is not enough space. The font is very small.
  F14 You are not allowed to delete or insert lines
  F15 The yellow spaces are limited.
  F16 The fact that some critical information such as the
        agreement/contract number has to be manually inserted on forms,
        indicates that the database is deficient.
  F17 None
  F18 There is not enough space. The font is very small and it cannot be
        changed. No lines can be inserted or deleted.
  F19 some FSN PSC contract language is prodoc needs to be corrected to
        conform with AIDAR J

12. What difficulties do you encounter printing documents from
    ProDoc?
    F1 None.
    F2 None.
    F3 None the way it is, but the final product looks bad.. Wouldn’t it
       make imminentlymore sense to have it print through a word
       processor, so that we could have an electronic document.
    F4 None
    F5 None
    F6 None.
    F7 Different type of fonts, it will be better if all sections could have the
       same font.


                                                                                   48
                                                                   Appendix V

12. What difficulties do you encounter printing documents from
    ProDoc?
    F8 Two cases:
           1. Under a Task Order Mod, the number of the Mod is too large
               because we have to add “OUT” to the number, it shows
               completely on the screen, it does not appear completely
               when printed.
           2. Under Mod with Assistance Instrument, when the obligated
               amount appears in the screen, it does not appear when
               printed (this was just a recent problem). Case No. 1 was
               already reported to Washington Prodoc Team
    F9 Cannot print individual pages.
  F10 It takes too much time to get to the printing screen (the system is
       very slow) and even though it gives you the choice to print just the
       pages you want it still prints you more than one page when you
       request just one page (you have to throw them away and waste a lot
       of paper).
  F11 What you see on the screen is not what you get once you print. The
       fonts change, you waste a lot of paper in trying to obtain a final
       copy. We have avoided this by printing from the word processor
       and just print the first page of the document from ProDoc which has
       worked best for us.
  F12 We cannot print individual pages. We have to print the whole
       document every time, even when we only need to print one page.
  F13 The format ad the font are not consistent in all the document.
  F14
  F15 Sometimes when printing you get text that is not necessary.
  F16 None
  F17 None
  F18 You cannot print individual pages. Every time you print the whole
       document comes out.
  F19 margins, formatting

13. Do you do a significant amount of document editing in Word after
    the documents are created in ProDoc?

   If so, why is the editing step necessary?
   F1 Yes!!!!

      The TOA at times does not appear. Need to include special clauses
      relative to post, i.e. security, authorized geographic code. For CAs,
      the dialogue is not specific, so if you have a substantial involvement
      clause, chances are you’ll have to insert in the word document the
      names of the key positions to be approved.
   F2 Yes.


                                                                               49
                                                                     Appendix V

13. Do you do a significant amount of document editing in Word after
    the documents are created in ProDoc?

   If so, why is the editing step necessary?

        Because of the reasons stated above: Not all the latest provisions
        show, not all the Sections appear, there is not enough space to type
        the words in the fill-ins etc.
   F3   Extremely! To be honest the final product is invariable a Word
        Document and not ProDoc. This is because the formating is off and
        it just does not produce a clean looking document. Couldn’t you
        have it so that we could do the contract in Worrd and send it back
        into Pro Doc?
   F4   No
   F5   I do convert all archives into WORD.
   F6   Yes. Because, PRO-DOC needs improvement on the presentation of
        the body of the contract, and sometimes is needed to add some
        portions to the Agreement.
   F7   Yes, mainly because ProDoc does not have enough continuation
        pages.
   F8        1. See answer No. 8
             2. Everything I do is re-edited into a Word format, except for
                 the forms.
             3. The editing step is necessary because it’s easier to work in
                 word instead of having all the blank spaces that the text
                 format has; also to be able to copy past sections that ProDoc
                 does not include or do not apply to overseas Missions.
   F9   In most cases, the whole document (excepting the forms) needs to
        be re-done in Word. Format and font are not consistent through the
        document and cannot be corrected, weird symbols appear
        throughout the document and cannot be deleted.

      A clean document cannot be obtained directly from ProDoc so it has
      to be re-done in Word and then imported into ProDoc.
  F10 Since the system has been so badly designed (very little space in the
      forms, you can’t align the text in the continuation pages, you don’t
      get the correct clauses, the P.O. formats do not allow you to write a
      description for services, just line items and they have to be priced,
      the font is very little etc.) about 90% has to be edited and printed
      from word if you want to get the job done.
  F11 It depends. When one is working in a complex procurement, such
      as RFP, RFA, it entail significant editing. The edit checks of the
      Pro-Doc seems to be a waste of time.
  F12 When we create the documents in ProDoc, we end up with
      documents with different fonts, weird format, and strange symbols.


                                                                                 50
                                                                    Appendix V

13. Do you do a significant amount of document editing in Word after
    the documents are created in ProDoc?

   If so, why is the editing step necessary?
        We’ve found that these problems are difficult to solve, even in
        Word, so we’ve chosen to create the documents in Word, and then
        import them into ProDoc.
  F13 No. I edit one document in Word (which includes, for instance,
        statement of work, selection criteria, etc.) and ignore each text
        segment in the content manager.
  F14 Yes, It is easier to work in word processor, since you can arrange
        docs.
  F15 Not significant, but some editing is necessary.
  F16 No
  F17 Never
  F18 Lots of strange symbols come out when you print the document.
        The format and the font are not consistent in the document.

      We try to change it but it can’t be done.
  F19 No
      my staff does this

14. How does ProDoc improve your efficiency in creating procurement
    documents?
    F1 Gives me the skeleton of the document that I can work with.
    F2 It is more user friendly and streamlined than the previous system.
    F3 Not much, though it is better than the previous products.
    F4 It is a faster and a reliable way of creating the correct document,
        especially because it keeps clauses up-to-date.
    F5 It is a great help for efficiency.
    F6 Very good.
    F7 Very well.
    F8      1. It is supposed to standardized the documents worldwide.
            2. It takes a lot of time to answer the ‘edit checks’ therefore
                there is no improvement in time and efficiency.
    F9 Rather than improving it, I think it has impared my efficiency. It
        takes longer and a double effort to produce a quality document.
  F10 It has not improved it, on the contrary it delays your work, your
        efficiency, it frustrates you and takes you more than twice the time
        to produce a procurement document.
  F11 I believe that in theory one could say consistency and up-to-date
        clauses. However, reality has shown that Pro-Doc is not up-to-date
        on the clauses and has not improved efficiency. For example, PSCs
        did not incorporate all required clauses, assistance instruments did
        not incorporate all required provisions. I still do not understand


                                                                               51
                                                                    Appendix V

14. How does ProDoc improve your efficiency in creating procurement
    documents?
        what happens with all the information that is fed into the system and
        one cannot generate any reports out of it.
  F12 We feel ProDoc has not improved our efficiency at all. It takes
        longer to produce an acceptable document now, than it took to
        produce it in the old system, DGS.
  F13 PRODOC has impaired the efficiency rather than improve it. It
        takes longer to obtain a good document.
  F14 While giving incorporated clauses reduce time of searching and
        typing them
  F15 Well it gives you the regulations that are needed for the procurement
        instrument you are working on and also the standardization of
        procurement documents.
  F16 The speed with which documents can now be created is greatly
        enhanced. Not as much editing and formatting is now required.
  F17 Don’t think it has improved, I feel it’s more time consuming and the
        end product is a document not as professional as prior used. We
        need a form with the possibility of inserting 14 digit numbers (max)
        for foreign currency, with independent dialogue questions for PO or
        CO (depending on the case) and with the possibility of making
        changes as the ones described in question 8.
  F18 PRODOC has impaired the efficiency rather than improve it. It
        takes longer to obtain a good document.
  F19 Central Achiving has its benefits. But this could be obtained in any
        program (e.g. Word).

15. How does ProDoc improve the quality of the documents you create?
    F1 Same as above.
    F2 The documents are more complete and have a good presentation.
    F3 It does not!
    F4 Same as above
    F5 The documents get a high quality.
    F6 It helps to provide the most recent clauses.
    F7 It helps, the only thing that is not really comfortable is that when
       you import a document from Word you can not see it in the ProDoc
       preview screen.
    F8     1. The system still needs to be fine-tuned to really produce a
               quality document. We work constantly with the Prodoc
               Team to inform them of the discrepancies or mistakes we
               have found by using the system.
           2. If we re-edit them in Word there is a better quality of
               documents;
    F9 It does not, as explained above.
  F10 It doesn’t most of the time it has the wrong clauses and the clauses


                                                                                52
                                                                    Appendix V

15. How does ProDoc improve the quality of the documents you create?
       that should be there, are not. You have to spend more time checking
       FAR matrix, printing out the document to be sure it has the right
       clauses etc. and when you have an urgent request it delays your
       work.
  F11 At least you have a starting point…
  F12 In theory, it should produce high quality documents with updated
       clauses, but in practice, this is not happening.
  F13 It does not improve it.
  F14 This does not improve quality since presentation of document is not
       the best
  F15 By providing current regulations.
  F16 No response.
  F17 Didn’t
  F18 It does not improve it.
  F19 Not much at all.

16. Generally, does ProDoc include clauses and policies that are needed
    for the document?
    F1 60% of the time. We have to include manually the certifications.
         When contemplating a contract with GUCs, the LOC language has
         to be incorporated manually.
    F2 Not all of them are.
    F3 Yes, though we have found numerous mistakes.
    F4 Yes, especially for PSCs.
    F5 In the case of Assistance Instruments, section attachment 4 for
         publications and communications has been incorporated into
         attachment 3. My comment is that it was better to leave attachment
         4 for Publications and communications.
    F6 Yes.
    F7 Yes
    F8 Here are several examples of problems related to this question,
         which were transferred to the Prodoc Team in Washington for
         solution at the time they appeared:
                     1) “Kim, I am working on a Coop.Agreement with a US
                         Non Governmental Organization who will perform
                         health activities, family planning being one of them
                         among others. PRODOC included the Standard
                         Provision "Voluntary Population Planning" Standard
                         Provision dated June 1999. In accordance with CIB
                         01-08R, this Standard Provision needs to incorporate
                         the new paragraphs (e) and (f) of the White House
                         Memorandum included in CIB 01-08R. I just want to
                         know if the Prodoc team plans to incorporate these
                         paragraphs in the Standard Provision that PRODOC


                                                                                53
                                                                    Appendix V

16. Generally, does ProDoc include clauses and policies that are needed
    for the document?
                      generates so that we do not have to remember to
                      copy/paste these two paragraphs every time we do an
                      Agreement which will perform family planning
                      activities. That will help us a lot. I am interested in
                      hearing from you about this question. Thanks”
                  2) Most of the time they are included; but if one of the
                      questions is not clear and we answered incorrectly
                      then the clauses are different. The clauses that I
                      found with mistakes or incomplete are: Standard
                      Provision “Publications and Media Releases (June
                      1999) appears incomplete, section (c) the beginning
                      of the sentence is missing; the other provision
                      incomplete is “Communications (Oct 1994)” together
                      with its Standards for publications and videos.
                  3) I've noticed that the modification of assistance form
                      that Prodoc produces is different from the letter form
                      we used in the past, and have some comments:

        1. This one does not have a section to keep track of counterpart
        contribution, which we have always done as part of the financial
        information. I guess we now should include this information in the
        continuation pages?

        2. The form talks about Grantee and Grant, When we are making
        modifications to cooperative agreements shouldn't we talk about
        Recipient and Cooperative Agreement? Doesn't the system give you
        the option to choose between grant and C.A.?

      3. There is not a Section on the cover page for “Fiscal Data”
      (General – Specific) as it used to be, we have to add it in the Word
      Document.
   F9 Sometimes it does but we have to double-check always.
  F10 See question 15.
  F11 Generally speaking yes, but it also includes a lot that are not
      needed…Purchase Orders and RFPs generate a lot of unneeded
      clauses that require a major clean-up effort.

      Unfortunately, I do not have a complete example, I destroyed all the
      unnecessary paperwork and did not include it in the file.
  F12 Generally, it does, but not always. We usually have to delete/ignore
      clauses that ProDoc has included, but don’t actually apply to our
      document.
  F13 Sometimes.


                                                                                54
                                                                     Appendix V

16. Generally, does ProDoc include clauses and policies that are needed
    for the document?
  F14 Yes
  F15 Generally it does.
  F16 Yes, in general.
  F17 sometimes
  F18 Sometimes
  F19 It requires a lot of user intervention to assure special clauses get
         added. This is not “automatic” with prodoc.

17. Generally, does ProDoc include clauses and policies that are not
    needed for the document?
    F1 Yes. Use of recovered material language, amongst others when you
        are putting together a contract that has nothing to do with the clause.
    F2 No.
    F3 Sometimes.
    F4 Yes, it will list the source, origin and nationality requirement clause
        as well as the marking clause in every P.O. or contract regardless of
        the type of contract. For example, if you are procuring services (not
        supplies) the marking clause make no sense.
    F5 ?????
    F6 Sometimes.
    F7 Yes
    F8 Here is only one example related to this question, as before, it was
        reported to Washington: “We are currently working on a Firm
        Fixed Price (FFP) solicitation. When we generate the solicitation
        after we have answered the dialog it generates a section B.2, titled
        "Cost Reimbursable". This is not a FFP/CR contract. Nor did we
        answer the questions as such. Additionally, the solicitation is not
        generating the line items we requested in the dialog. We have tried
        to use the Web Browser to ask questions but can't seem to find the
        location. The Contracting Officer, [name redacted] (from
        Washington DC) and myself have gone through the dialog several
        times and answered the questions correctly. But we still come up
        with the same incorrect sections. We have also "re-generated" after
        each dialog session. Can you provide assistance with this problem?”
    F9 Almost always.
  F10 See question 15
  F11 Same as 16 above.
  F12 Yes.
  F13 Yes.
  F14 Yes
  F15 On generating, Task Orders I encounter an article that is not needed
        (Allowances), so we have to delete this article when editing the
        document.


                                                                                  55
                                                                     Appendix V

17. Generally, does ProDoc include clauses and policies that are not
    needed for the document?

        Also when processing Purchase Orders, numerous clauses are not
        applicable for the field.
  F16   No, because we now have the option to ignore unwanted clauses and
        policies.
  F17   sometimes
  F18   Yes
  F19   no

18. Generally, does ProDoc include clauses and policies that are free
    from misspellings or other inaccuracies?
    F1 No. I generally run a spell check before I print. I’ve found spelling
        mistakes that are not that significant, but might confuse.
    F2 I have not noticed.
    F3 No, there are numnerous instances of these, which is intolerable
        considering how much we spend on this and the fact that this is not
        nuclear physics as there are a lot of contract writing systems trhough
        out the government.
    F4 I hope so!
    F5 No my case.
    F6 Yes.
    F7 Yes
    F8 No, we have found some misspelled words: Here are some
        examples reported to Washington:

        1. “Good Morning ladies!, just a short note to inform you that
        Section G.1
        of the Contract Sample in Prodoc, entitled "AIDAR 752.7003
        Documentation
        for Payment (Nov 1998)", paragraph (a) has a typo in line six,
        instead
        of "USUSAID", it should read "USAID".
        2. See also Response No. 16 above regarding the Standard
        Provision of Communications Products.

   F9   No.
  F10   No
  F11   Generally it does.
  F12   Some clauses have spelling problems.
  F13   No.
  F14
  F15   Generally it does.
  F16   Yes


                                                                                 56
                                                                    Appendix V

18. Generally, does ProDoc include clauses and policies that are free
    from misspellings or other inaccuracies?
  F17 Yes
  F18 No
  F19 Formatting is an issue.

19. Generally, does ProDoc include clauses and policies that are up to
    date?
    F1 Yes, except that it takes a while. For instance on the assistance to
        terrorist. The AAPD had been issued a month prior to the clause
        being incorporated in the system.
    F2 See block 16 above.
    F3 Mostly, but not always. We must double check it continuoisly
    F4 Yes
    F5 NO
    F6 Yes.
    F7 Yes
    F8 No, See response No.16
    F9 Sometimes.
  F10 Sometimes
  F11 No it doesn’t. The PSC assembling was one example, but I do not
        have a complete
  F12 Some clauses are outdated.
  F13 Sometimes.
  F14 Yes
  F15 Most of the time we have updated clauses.
  F16 Yes, most seem to be up-to-date.
  F17 Yes
  F18 Sometimes
  F19 Yes.

20. What difficulties do you encounter using the Edit Check function?
    F1 Do not use it.
    F2 Again, difficulties in the interpretation.
    F3 Having to input the same information twice
    F4 None
    F5 It is cumbersome for Purchase Orders and Contracts prepared
       abroad (DUNs number).
    F6 Once this portion is finished as OK by the negotiator, If there is
       anything to be changed on the edit check portion, it can not be done,
       unless the negotiator goes through the dialog session again.
    F7 none
    F8      1) The questions are confusing (effective date, award date,
               TEC, etc).


                                                                               57
                                                                   Appendix V

20. What difficulties do you encounter using the Edit Check function?
           2) When we export actions and need to import them again, the
                answers that had been entered under “edit checks”
                disappeared, we have to reentered them again, causing
                double work for us.
           3) A difficulty we encountered was that this function some
                times deleted previous information that had been filled in
                and we needed to re-answer the questions.
           4) Some questions in the Edit Checks are still confusing and the
                information that gets to Washington is not accurate.
    F9 None.
  F10 For simplified acquisitions for example the edit check dialog is so
       long and has so many unnecessary questions that it cancels the
       purpose of simplified doing the action more complex. For
       simplified acquisitions over 25,000 you have to play with the system
       to see what category does the system accepts eventhough it is not
       the right one for the type of procurement. For contracts it is very
       time consuming and it asks you questions that you have to go to the
       internet (without providing access from ProDoc) you have to go
       back and forth also to different sources to answer the questions. The
       system should include the options for you to get the answers directly
       from it instead of loosing too much time.
  F11 It is a long process, even for a simple modification. It queries a lot
       of information, yet one cannot get any reports out of these
       questionnaires.
  F12 Overall, it’s OK, but I would suggest that some questions like the
       “FIPS’ codes and Congressional Districts have a link that takes us to
       a website in which we can look up the requested info.
  F13 None.
  F14
  F15 None
  F16 None
  F17 None
  F18 No.
  F19 Workload, monotonous and repetitive, good idea to make it
       quarterly.

21. According to your understanding, what is the significance of
    providing Federal Procurement Data System (FPDS) reporting
    information?
    F1 So Congress knows how much $$$ we’ve disbursed and to whom.
    F2 This serves a Washington purpose for reporting.
    F3 It is extremely importatant.
    F4 It is a way of recording the number of actions and amount of money
        disburse in a given Mission.


                                                                               58
                                                                      Appendix V

21. According to your understanding, what is the significance of
    providing Federal Procurement Data System (FPDS) reporting
    information?
    F5 I can’t tell. But it should be useful by quantifying the total amount
        of acquistion.
    F6 Like the old CIMS report.
    F7 Keep a track of all the actions each mission is awarding and know
        the amount of money that are using.
    F8              1. The importance is the accurate of the report, the data
                       transmitted is then reported to Congress. What is
                       really important here in this Mission, is that we have
                       found that the amounts reported to Washington do
                       not always represent the actual obligated amounts
                       during the reporting period. We have been working
                       with the Washington Prodoc Team and with DSI, the
                       contractor who created the system, with this problem
                       for a long time, we have devoted a considerable
                       amount of our time to work with Washington to
                       resolve this problem. I personally think that the
                       system should be able to generate accurate data,
                       without us being involved so much in this issue. I
                       think that the comments regarding that the questions
                       that Prodoc asks are confusing might be the basis for
                       not capturing accurate information in the FPDS
                       report. We have been able to discuss this problem
                       with Washington, because I think we are probably the
                       only Mission who does the FPDS reporting through
                       the Contracting Officer, other Missions do it through
                       the Management Information System Office
                       (theMIS) and the Contracting Officer does not really
                       look at the amounts that are being reported each
                       quarter but the System Manager does. We have
                       worked with [name redacted], [name redacted],
                       [name redacted], and the [name redacted] from DSI,
                       the contractor, regarding this problem, but I still think
                       is not completely resolved yet.
                    2. ProDoc is not generating the reports correctly so we
                       have to issue different and separate reports every
                       time Washington asks us; creating double work and
                       waste of time answering under ProDoc
            5) My understanding is that with this reporting data,
                Washington will collect all the information necessary
                worldwide to avoid additional reporting. However,
                USAID/Wash. is constantly adding new separate reporting
                requirements to the Missions (i.e. Minority Serving


                                                                                   59
                                                                     Appendix V

21. According to your understanding, what is the significance of
    providing Federal Procurement Data System (FPDS) reporting
    information?
               Institutions (MSI), and performance based reporting that are
               not included in the system.
    F9 Important so that USAID/W can keep track of all overseas actions.
  F10 In order to have a better tracking system of actions since they
        eliminated CIMS we have had no system in place.
  F11 For budgetary approvals before Congress.
  F12 So USAID/W can keep record of the actions processed by each
        Mission.
  F13 USAID/Washington can keep record of our actions.
  F14 It helps to classify info by special codes which help system work
        better
  F15 It is very important due to the decisions that are made based on this
        information in the US government.
  F16 To enable the Agency to accurately collect and report procurement
        data.
  F17
  F18 So USAID/Washington can keep record of our actions.
  F19 To inform Congress of USAID procurement activity

22. What difficulties do you have using the ProDoc Help function?
    F1 Don’t use it.
    F2 Don’t use it that much.
    F3 Not many.
    F4 To be honest, I have not used the Help function.
    F5 I have not used this facility.
    F6 It’s very slow and it can not be used with many windows opened in
       the computer.
    F7 No experience
    F8     1. I wish the orientation/explanation could be more detailed,
               specially it is difficult for junior procurement specialists to
               understand the explanation if it is not fully addressed.
           2. It does not give to much information, only repeats the
               question.
    F9 Rarely use it. (it’s really no big help for the problems that we need
       help with.)
  F10 I do not use it
  F11 Never used it.
  F12 I don’t use it.
  F13 Dialog help: it should contain the links to the web sites. I rarely use
       the others help.
  F14 Most of the time the help function does not take you anywhere,



                                                                                 60
                                                                    Appendix V

22. What difficulties do you have using the ProDoc Help function?
       since no information is given there.
  F15 None
  F16 No
  F17 Hasn’t used it
  F18 Dialog help: It should contain the links to the web sites. I rarely use
       the other help.
  F19 It works pretty well once you’ve learned how to use it.

23. What ProDoc resources are available to you to help solve problems?
    Which are most useful to you when you encounter problems with
    ProDoc?
    F1 Didn’t know they existed, other than complain to my system
       administrator and have him take it up to DC.
    F2 Manuals and ProDoc Help. ProDoc Help.
    F3 Only the materials brought back by our ToT guy from Bolivia.
    F4 The manual is my first source, the second source is the System
       Manager and the Acquisition Specialist of the Mission, both of them
       took the PRODOC training in Bolivia.
    F5
    F6 For technical issues the Data System Division of the Mission.
    F7 Web ProDoc Traning, help, and the text

      The text
   F8     1. The TOT has been designated as the Mission Prodoc point of
             contact for any problems regarding prodoc and the liaison for
             Prodoc with OP/Washington. My first resource available is
             the Prodoc Team in Washington, specifically with [name
             redacted], [name redacted], [name redacted], [name
             redacted], and from the side of the contractor with [name
             redacted], who have provided me with help. In many cases
             with quick help. In other cases, they have indicated that the
             system was not created to solve certain problems or that the
             issues would be included in the next Prodoc releases.
             Regarding other resources, I personally have found that the
             reg search tool is the most useful one.
          2. Only one person in USAID/Washington that keeps changing
             and sometimes does not know the answers and we have to go
             directly to the Contractor that designed Prodoc.
   F9 Washington backstop personnel but they rarely answer the questions
      that we forward.

      None.
  F10 People from Washington, the most useful that I have found is
      consulting with our co-workers here to try a find an answer or try to


                                                                                61
                                                                     Appendix V

23. What ProDoc resources are available to you to help solve problems?
    Which are most useful to you when you encounter problems with
    ProDoc?
       guess what to do.
  F11 I normally call our System Manager and/or one Acquisition
       Specialist in the Regional Contracts and Grants Office (both took
       the Pro-Doc training in Bolivia) and if they are unable to help, they
       forward the questions to AID/W.

        Both are very useful and normally we get fast response from
        AID/W.
  F12   We can only ask Washington, but they rarely answer the inquiries.
  F13   We ask Washington but they rarely answer.
  F14   Systems assistant
  F15   OP/Washington has helped many times, when questions or problems
        rose.
  F16   Web training, ProDoc manual, OP Solution Centre
  F17   Persons in the mission who did take the training in Bolivia at the
        beginning of this year.
  F18   We ask Washington, but they rarely answer.
  F19   on line, and contacts in Washington.

24. Is there anything else you would like to share with us about ProDoc?
    F1 In our Mission at least 4 of us use the program, but we’ve never
         been trained. I’ve provided minimal training and at times of trouble,
         I need to be creative enough to figure out things.
    F2
    F3 It is bad, clumsy and obviously picked by AID/W for use there and
         without thought given to needs of the Mission. Also there are
         duplicate entries of the same information, and we must augment it
         with additional reports.
    F4 There are still some questions that are not always relevant,
         especially when you use the PRODOC for Small (local) Purchase
         Orders.
    F5
    F6 PRO-DOC mainly provides a frame, but each negotiator arranges to
         provide a body to the acquisition or assistance instrument.
    F7 Please include formulas when we are entering the previous amount
         and increasing or decreasing a new one. Also include more
         continuation pages.
    F8       1. The overseas Missions were not involved when adapting the
                 system for the use of USAID, therefore, our input was not
                 included which concluded with a system that did not really
                 meet our needs in the field and that needed a lot of
                 adaptations and a lot of our efforts to make the system work.


                                                                                 62
                                                                          Appendix V

24. Is there anything else you would like to share with us about ProDoc?
              2. There are a lot of questions in the dialog and also in the edit
                  checks that are confusing and that might be the reason why
                  we are not getting accurate reports to Washington. Although
                  the OP/Washington Prodoc Team has been involved with
                  USAID/Guatemala to resolve this issue, I do not think it has
                  been fully resolved. Although our staff in
                  USAID/Guatemala has been helping OP/Washington with
                  this issue, I consider that it is the responsibility of the Prodoc
                  Team in Washington and mainly of the Contractor to resolve
                  this problem and instruct the Mission how to get an accurate
                  report. I just want to also say that this Mission has spent a
                  considerable amount of our time on this issue and have to
                  arrange our heavy workload to add space for this issue,
                  which I think should not happen because systems like this
                  should have been tested before they are implemented
                  worldwide to avoid these kind of problems.
              3. I have felt the frustration of myself and the rest of the users
                  in this Mission, including the Contracting Officer, of having
                  to work with a system that needs to be arranged while it is
                  being used. If the purpose of the system is to standarize the
                  formats, I think we will never get to this goal because of the
                  changes to the system. If the purpose is to get a good report
                  of USAID actions to the US Congress, I think this has not
                  happened either.
              4. The system tries to meet our needs, but it has to be adapted
                  to Overseas Missions. Review the grammar and the kind of
                  questions to be more user-friendly. Immediately fix it so
                  every report that Washington requests can be taken out from
                  the Data that Prodoc keeps and not do Prodoc and other
                  reports separately.
              5. I think we all expected more from Prodoc. I think the system
                  is user friendly but in order to understand it completely you
                  have to invest sufficient time, which we do not always have.
                  I always get frustrated with the system, mainly if you are
                  working with an urgent procurement.
              6. It will be great if there will be not limit of documents per
                  year for each individual (in the particular case of FSNs an
                  average of three modifications are being prepared in a year
                  for each individual and I have 126 FSN employees!!)
    F9 In general, I dislike it because, as stated above, rather than being a
         useful work tool, it constitutes a burden. We could produce good
         quality documents faster if we didn’t have to use it.
  F10 I believe the system has complicated the way we do our work since
         it is extremely slow, time consuming and not accurate, you should


                                                                                       63
                                                                       Appendix V

24. Is there anything else you would like to share with us about ProDoc?
         be able to trust the system but we have to do a lot of checking to
         make sure we have the right clauses.
  F11 Yes. We have moved from various procurement systems
         throughout the years, i.e. DGS, MPICS, CIMS and now ProDoc.
         The idea is great, just that is not serving its intended purpose. If one
         spend such a tremendous amount of time in feeding this system, one
         could expect that it also generates some type of reporting, and that
         the clauses are up-to-date.
         On the other hand, I personally think that I am not using it at a 100%
         of its intended purpose, since most of the documents that I generate
         are created outside the system, otherwise things would not move. I
         am relying up to a certain degree on the clauses it generates.
  F12 As a general feeling in our office, we are not happy with it,
  F13
  F14
  F15 At this time we are using Prodoc with Windows 2000 client
         operating system, we believe that it is very important to have
         constant upgrades in order to obtain better application performance.
  F16 From the time of the initial training to now, a lot of improvements
         have been made to the system. I believe it is now time for a second
         level of training to ensure a higher level of standardization among
         system users.
  F17 It has not been a friendly system, I feel much better now after 1 year
         of having using it but still there are doubts that have not been solved
         and issues that need improvement as the above mentioned.
  F18 As a general feeling we don’t like it.
  F19 It seems like contract formulation has suffered as a result of the
         hope for better reporting.




                                                                                    64
                                                                           Appendix VI


Acronyms   This appendix defines the acronyms used in questionnaire responses we received
           from the missions in the Latin America and Caribbean Region. The responses
           themselves are included in Appendix V.

           AAPD           Acquisition & Assistance Policy Directive
           ADS            Automated Directives System
           AID/W          Agency for International Development/Washington
           AIDAR          Agency for International Development Acquisition Regulations
           C.A.           Cooperative Agreement
           CA             Cooperative Agreement
           CFDA           Catalog of Federal Domestic Assistance
           CIB            Contract Information Bulletin
           CIMS           Contract Information Management System
           CO             Contracting Officer
           CR             Cost Reimbursable
           DC             District of Colombia
           DGS            Document Generation System
           DUN            Dun & Bradstreet
           FAC            Federal Acquisition Circular
           FFP            Firm Fixed Price
           FIPS           Federal Information Processing Standards
           FPDF           Typographical error – See FPDS
           FPDS           Federal Procurement Data System
           FSN            Foreign Service National
           GUC            Grant Under Contract
           LOC            Letter of Credit
           MIS            Management Information System
           MPICS          Mission Procurement Information Capture System
           MSI            Minority Serving Institutions
           N/A            Not Applicable
           NAIC           North American Industry Classification
           OK             Okay
           OP             Office of Procurement
           P.O.           Purchase Order
           PAPA           Participating Agency Program Agreement
           PASA           Participating Agency Service Agreement
           PO             Purchase Order
           PSC            Personal Services Contractor
           RCG            Regional Contracts and Grants
           RFA            Request for Assistance
           RFP            Request for Proposal
           TEC            Total Estimated Cost
           TOA            Total Obligated Amount
           TOT            Training of Trainers


                                                                                         65
                             Appendix VI

USAID/W   USAID/Washington
WAS       Washington




                                      66
